Cooper & Kirk
Lawyers

A Professional Limited Liability Company

David H. Thompson
(202) 220-9659
dthompson@cooperkirk.com

1523 New Hampshire Avenue, N.W.
Washington, D.C. 20036

(202) 220-9600
Fax (202) 220-9601

March 31, 2021
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re:

Collins v. Yellen, No. 19-422, & Yellen v. Collins, No. 19-563

Dear Mr. Harris:
The plaintiff shareholders agree with the Acting Solicitor General that the January 14, 2021
amendments to the Preferred Stock Purchase Agreements do not render this case moot. With all
agreed that recent developments have no effect on this Court’s jurisdiction, the extra-record
evidence attached to the Acting Solicitor General’s letter of March 18, 2021 should not be
considered as part of this appeal.
Even after the January 14 letter agreement, Fannie and Freddie continue to have enormous
capital deficits that were caused by the Net Worth Sweep. See J.A. 102–03. And while the Acting
Solicitor General promotes the new arrangement as allowing the Companies to “build up
substantial capital reserves” over a period of “multiple years,” this purported capital build-up is
entirely ephemeral because it will be offset by a corresponding and equal increase in the liquidation
preference on Treasury’s senior preferred stock. Through the January 14 letter agreement, FHFA
and Treasury have done nothing to reverse the nationalization of Fannie and Freddie but only
further entrenched Treasury’s status as the sole shareholder that can ever receive a return on its
investment. This arrangement is inherently unsound and inconsistent with FHFA’s
conservatorship mission because it makes it impossible for the Companies to raise additional
capital through the sale of new stock at a time when they are massively undercapitalized due to
FHFA’s previous unlawful conduct.
The January 14 letter agreement is also subject to the same constitutional objection already
before the Court, for it was negotiated between Treasury and FHFA’s (Senate-confirmed) Director.
Please distribute this letter to the Members of the Court.

1

Sincerely,
/s/ David H. Thompson
David H. Thompson
Counsel for Patrick J. Collins, et al.
cc: See Attached Service List

2

Patrick J. Collins, et al. v. Janet L. Yellen, Sec’y of Treasury, et al., No. 19-422
Elizabeth B. Prelogar
Acting Solicitor General
United States Department of Justice
950 Pennsylvania Avenue, NW
Washington, DC 20530
(202) 514-2217
SupremeCtBriefs@USDOJ.gov
Jason Alan Levine
Vinson & Elkins LLP
2200 Pennsylvania Avenue, NW
Suite 500 – West
Washington, DC 20037
(202) 639-6500
jlevin@velaw.com
Aaron Llyod Nielson
J. Reuben Clark Law School
Brigham Young University
516 JRCB
Provo, UT 84602
(801) 422-2669
nielsona@law.byu.edu
Michael Pepson
Americans for Prosperity
1310 N. Courthouse Road
Suite 700
Arlington, VA 22201
mpepson@AFPHQ.org
Matthew P. Cavedon
Director of Operations
P.O. Box 390
Gainesville, GA 30503
mcavedon@post.harvard.edu
Cynthia Fleming Crawford
Americans for Prosperity Foundation
1310 Courthouse Road, 7th Floor
Arlington, VA 22201
(571) 329-2227
ccrawford@afphq.org
3

Linda C. Goldstein
Dechert LLP
1095 Avenue of the Americas
New York, NY 10036
(212) 698-3500
Linda.goldstein@dechert.com
Brianne J. Gorod
Constitutional Accountability Center
1200 18th St., NW
Ste. 501
Washington, DC 20036
(202) 296-6889
brianne@theusconstitution.org
John Harrison
University of Virginia, School of Law
580 Massie Road
Charlottesville, VA 22903
(434) 924-3093
Jh8m@law.virginia.edu
Rachel F. Homer
Protect Democracy Project
2020 Pennsylvania Avenue, NW
Ste. 1163
Washington, DC 20006
(202) 997-2166
Rachel.homer@protectdemocracy.org
Jeffrey W. McCoy
Pacific Legal Foundation
3100 Clarendon Blvd.
Ste. 610
Arlington, VA 22201-5330
(916) 419-7111
jmccoy@pacificlegal.org
Lawrence D. Rosenberg
Jones Day
51 Louisiana Ave., NW
Washington, DC 20001
(202) 879-3939
ldrosenberg@jonesday.com

4

Richard A. Samp
New Civil Liberties Alliance
1225 19th Street NW
Ste. 450
Washington, DC 20036
(202) 588-0302
richsamp@ncla.legal
Robert Carter Schubert
Schubert Jonckheer & Kolbe LLP
Three Embarcadero Center
San Francisco, CA 94111
(415) 788-4220
rschubert@sjk.law

5

Janet L. Yellen, Sec’y of Treasury, et al. v. Patrick J. Collins, et al., No. 19-563
Elizabeth B. Prelogar
Acting Solicitor General
United States Department of Justice
950 Pennsylvania Avenue, NW
Washington, DC 20530
(202) 514-2217
SupremeCtBriefs@USDOJ.gov
Jason Alan Levine
Vinson & Elkins LLP
2200 Pennsylvania Avenue, NW
Suite 500 – West
Washington, DC 20037
(202) 639-6500
jlevin@velaw.com
Aaron Llyod Nielson
J. Reuben Clark Law School
Brigham Young University
516 JRCB
Provo, UT 84602
(801) 422-2669
nielsona@law.byu.edu
Michael Pepson
Americans for Prosperity
1310 N. Courthouse Road
Suite 700
Arlington, VA 22201
mpepson@AFPHQ.org
Robert Carter Schubert
Schubert Jonckheer & Kolbe LLP
Three Embarcadero Center
San Francisco, CA 94111
(415) 788-4220
rschubert@sjk.law

6

